                               CLOSEOUT FOR M92010002
    TIus case was brought to the attention of OIG on January 2, 1992, by NSF's Office of




-
the General Counsel.-                       a lawyer for-                       the complainant,
had written a letter to the General Counsel which formed the basis for an allegation of
intellectual theft against the subject,.-                 In her letter, the lawyer stated that the
subject might have submitted or might be about to submit a proposal to NSF; the content of
that proposal would be based on work that was the copyrighted property of her client, the
complainant. The subject did not have authorization from the complainant to use that
material. Both the complainant and the subject are currently employed by the-
                       The subjectt J
                                    is a- 1                                         and the
complainant is a research associate in his laboratory.

    OIG found that proposal-                corresponded to the proposal identified-in the
lawyer's letter. This declined proposal named the subject and the complainant as co-PIS; it
did not name the subject as the sole PI. When contacted by OIG, the complainant said that
she was aware of and in agreement with both the submission and the content of the proposal
to NSF. She said that the proposal was the material that was the focus of her lawyer's letter.
A misunderstanding between the subject and the complainant had resulted in the letter from
the complainant's lawyer to NSF. The letter was not in response to an event which had
actually occurred, but was an attempt to avert the possibility of the subject submitting a
proposal that excluded the complainant. After that letter had been received by NSF, the
complainant and the subject submitted the proposal as a collaborative effort. Neither the
complainant nor her lawyer infonned NSF of the complainant's and subject's joint
submission.

     Since the proposal was jointly submitted, there is no basis for an allegation of intellectual
theft. We are closing the inquiry in this case without a finding of misconduct.




Concurrence:


                                                     V
                                                             --a
                                                                                         /2Jcj3
Donald E. BuzzeIli                                  James J. $?wof/enik
Senior Scientist, Office of Oversight               Assistant Inspector General for Oversight



Montgo'mer- K. Fisher
Deputy Counsel to the Inspector General

cc:     Assistant Inspector General for Oversight
        Inspector General
